                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: A12020009                                                                     Page 1 of 1

                                                                                                             '!\



                 Our office received an allegation of plagiarism in a proposal 1 a Subjecf submitted to
         NSF. We reviewed the proposal and identified only a minimal amount of copied text that lacked
         quotation, citation, and reference. We did identify additional inappropriately cited text, but we
         noted that though the text lacked demarcation from the surrounding text, it was cited and
                                                                                                             I     I
                                                                                                                   I

         referenced. We identified no copied text in another proposae the Subject had solely authored.

                We sent the Subject a Questionable Research Practice letter, reminding him of his
         responsibility to submit proposal to NSF that include appropriate citation of sources.
                                                                                                                   I
         Accordingly, this case is closed.




NSF OIG Form 2 (I 1/02)
